<html>
<title> - CROSS-BORDER DATA FLOWS: COULD FOREIGN PROTECTIONISM HURT U.S. JOBS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
  CROSS-BORDER DATA FLOWS: COULD FOREIGN PROTECTIONISM HURT U.S. JOBS?

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2014

                               __________

                           Serial No. 113-176
                           
                           
                           
                           
                           
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                           
                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                        ______________________
                        
                     U.S. GOVERNMENT PUBLISHING OFFICE
95-852 PDF                  WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
     
     
                     
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                          LEE TERRY, Nebraska
                                 Chairman
LEONARD LANCE, New Jersey            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          JOHN P. SARBANES, Maryland
GREGG HARPER, Mississippi            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    JOHN A. YARMUTH, Kentucky
DAVID B. McKINLEY, West Virginia     JOHN D. DINGELL, Michigan
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
GUS M. BILIRAKIS, Florida            JOHN BARROW, Georgia
BILL JOHNSON, Ohio                   DONNA M. CHRISTENSEN, Virgin 
BILLY LONG, Missouri                     Islands
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Pete Olson, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
Hon. Janice D. Shakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     5
    Prepared statement...........................................
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    83

                               Witnesses

Linda Dempsey, Vice President, International Economic Affairs, 
  National Association of Manufacturers..........................     7
    Prepared statement...........................................     9
    Answers to submitted questions...............................    84
Brian Bieron, Executive Director, Public Policy Lab, eBay, Inc...    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................    91
Laura K. Donohue, Professor of Law, Director, Center on National 
  Security and the Law, Georgetown University Law Center.........    34
    Prepared statement...........................................    37
Sean S. Heather, Vice President, Center for Global Regulatory 
  Cooperation, Executive Director, International Policy and 
  Antitrust Policy, U.S. Chamber of Commerce.....................    57
    Prepared statement...........................................    59
    Answers to submitted questions...............................    96

                           Submitted Material

Letter of September 16, 2014, from Howard Fienberg, Director of 
  Government Affairs, Marketing Research Association, to Mr. 
  Terry and Ms. Schakowsky, submitted by Mr. Terry...............    77
Letter of April 3, 2014, from Myron A. Brilliant, Executive Vice 
  President and Head of International Affairs, U.S. Chamber of 
  Commerce, to John P. Holden, Assistant to the President for 
  Science and Technology Policy, submitted by Mr. Terry..........    79


  CROSS-BORDER DATA FLOWS: COULD FOREIGN PROTECTIONISM HURT U.S. JOBS?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
room 2322, Rayburn House Office Building, Hon. Lee Terry 
(chairman of the subcommittee) presiding.
    Members present: Representatives Terry, Lance, Blackburn, 
Harper, Guthrie, Olson, Bilirakis, Long, Schakowsky, McNerney, 
and Barrow.
    Staff present: Leighton Brown, Press Assistant; Graham 
Dufault, Policy Coordinator, Commerce, Manufacturing, and 
Trade; Melissa Froelich, Counsel, Commerce, Manufacturing, and 
Trade; Kirby Howard, Legislative Clerk; Paul Nagle, Chief 
Counsel, Commerce, Manufacturing, and Trade; Michelle Ash, 
Democratic General Counsel; and Lisa Goldman, Democratic 
Counsel.
    Mr. Terry. I want to thank all of you for being here. We 
have a couple of Democrats and a couple of Republicans. I think 
we are ready to go. So I want to thank our witnesses for being 
here. I am going to start with my opening statement.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Good afternoon to all. Welcome to our hearing entitled 
``Cross-Border Data Flows: Could Foreign Protectionism Hurt 
U.S. Jobs?''
    I want to mention, before we get started, that eBay is here 
to testify today. And I am especially thankful for you that 
because eBay owns PayPal, which employs about 4,000 people in 
my district.
    We are here today to discuss an emerging trend among many 
countries around the globe that could potentially have a 
negative impact on our economy. First of all, what are data 
flows, and why are they important? The flow of data across 
borders simply refers to the ability to send an email, a file 
transfer, video, or other electronic data from one country to 
another. And because very little business is done today without 
some form of electronic data, data flows are a big deal for 
manufacturing, energy, agribusiness, health care, financial 
institutions, retailers, advertisers, insurance, and tech 
companies.
    But several countries have proposed or enacted restrictions 
on cross-border data flows or have required companies to locate 
data centers within their own borders. For example, Russia has 
made a law restricting data flows. Brazil proposed a, quote, 
``civil Internet framework,'' end quote, that would have 
authorized the government to require data to be stored in 
Brazil.
    The governments of Indonesia, Singapore, and India have 
also issued proposals that would either subject cloud computing 
to additional regulation or require data to remain stored 
inside respective countries. Sadly, these are but a few of the 
countries where it is an issue.
    Proposals to require local data centers have been aptly 
named forced localization and come with varying rationales. The 
European Commission, for example, has argued that localization 
of data could be a way to promote domestic industry and create 
jobs. But as we will hear from some of the witnesses today, it 
is doubtful that such policies would achieve these intended 
goals. More likely, they would take away the benefits that 
digital trade brings to that country and to the U.S. companies.
    Other proponents of data flow restrictions argue that the 
revelations concerning U.S. intelligence surveillance justify 
balkanizing the flow of data.
    The United States should send a clear message that forced 
localization and other restrictions on data flows are 
commercial regulations that affect businesses, and recent 
headlines cannot be used to force concessions from U.S. 
companies that cost us jobs here in the U.S.
    Over 300 Federal and State privacy laws are on the books in 
the U.S., and that proves that we do have privacy policies in 
the U.S. We have more privacy and risk officers in the U.S. 
than anywhere else in the world.
    Companies are reacting to the market and giving consumers 
more control, like Facebook's recent policy that permit users 
to remove themselves from the categories of advertising. And 
there are very few nations with a better record for the rule of 
law than the United States. Intelligence surveillance is being 
tackled, as it should, with input from Congress and our 
national security agencies.
    When it comes to trade, the U.S. cannot allow 
protectionism. Whether it is under the pretext of privacy or 
whatever, it threatens U.S. jobs and U.S. competitiveness. Our 
trade negotiators with USTR and the International Trade 
Administration have stressed to the counterparts overseas that 
the negotiations must focus on the commercial flow of data, 
which is of great value to everyone involved.
    There are many pieces that touch on data flows, the Trans-
Pacific Partnership, the Trade and Services Agreement, the 
Transatlantic and Investment Partnership, and the Safe Harbor 
Framework. We cannot falter in any of these. I am hopeful that 
Congress will send a unified message to current and future 
trading partners that trade barriers will not be tolerated, and 
that we will protect our economic interest in data flows.
    I want to thank our witnesses for being here today.
    [The prepared statement of Mr. Terry follows:]

                  Prepared statement of Hon. Lee Terry

    Good afternoon, and welcome to our hearing entitled, 
``Cross-Border Data Flows: Could Foreign Protectionism Hurt 
U.S. Jobs?''
    I want to mention before we get started, that eBay is here 
to testify today, and I am especially thankful for that because 
eBay owns PayPal, which has an office of over 4,000 employees 
in the Omaha area.
    We are here today to discuss an emerging trend among many 
countries around the globe that could potentially have a 
negative impact on our economy.
    First of all, what are data flows and why are they 
important?
    The flow of data across borders simply refers to the 
ability to send an e-mail, a file transfer, video, or other 
electronic data from one country to another.
    And because very little business is done without some form 
of electronic data, ``data flows'' are a big deal for 
manufacturing, energy, agribusinesses, health care, financial 
institutions, retailers, advertisers, insurers, and tech 
companies.
    But several countries have proposed or enacted restrictions 
on cross-border data flows or have required companies to locate 
data centers within their own borders.
    For example, Russia has made a law restricting data flows. 
Brazil proposed a ``Civil Internet Framework'' that would have 
authorized the government to require data to be stored in 
Brazil.
    The governments of Indonesia, Singapore, and India have 
also issued proposals that would either subject cloud computing 
to additional regulation or require data to remain stored 
inside the respective countries. Sadly, these are but a few of 
the countries where this is an issue.
    Proposals to require local data centers have been aptly 
named ``forced localization,'' and come with varying 
rationales.
    The European Commission, for example, has argued that 
localization of data could be a way to promote domestic 
industry and create jobs.
    But as we'll hear from some of the witnesses today, it's 
doubtful that such policies would achieve these intended goals. 
More likely, they would take away the benefits that digital 
trade brings to that country and to U.S. companies.
    Other proponents of data flow restrictions argue that the 
revelations concerning U.S. intelligence surveillance justify 
balkanizing the flow of data.
    The United States should send a clear message that forced 
localization and other restrictions on data flows are 
commercial regulations that affect businesses, and recent 
headlines cannot be used to force concessions from U.S. 
companies that cost us jobs here in the U.S.
    Moreover, it is simply not accurate to say that there are 
not privacy protections in the U.S.
    Over 300 Federal and State privacy laws on the books in the 
U.S. prove otherwise. FTC enforcement proves otherwise. And our 
marketplace shows otherwise.
    We have more privacy and risk officers in the U.S. than 
anywhere else in the world. Companies are reacting to the 
market and giving consumers more control--like Facebook's 
recent policy announcement that permits users to remove 
themselves from categories of advertising.
    And there are few nations with a better record for the rule 
of law. Intelligence surveillance is being tackled as it 
should, with input from Congress and our national security 
agencies.
    When it comes to trade, the U.S. cannot allow 
protectionism-under the pretext of privacy-to threaten U.S. 
jobs and U.S. competitiveness. Our trade negotiators with USTR 
and the International Trade Administration have stressed to 
their counterparts overseas that the negotiations must focus on 
the commercial flow of data which is of great value to everyone 
involved.
    There are many pieces that touch on data flows: the Trans-
Pacific Partnership (TPP), the Trade in Services Agreement 
(TiSA), the Transatlantic Trade and Investment Partnership 
(TTIP), and the Safe Harbor Framework. We cannot falter in any 
of these.
    I am hopeful that Congress can send a unified message to 
current and future trading partners that trade barriers will 
not be tolerated, and that we will protect our economic 
interest in data flows.
    I thank the witnesses for being here today to shed more 
light on this issue and for giving our subcommittee the 
opportunity to spearhead Congress' activity in this area.

    Mr. Terry. I have 1 minute, if anybody wants it.
    Gentleman from Texas.

   OPENING STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Olson. Thank you, Mr. Chairman, for holding this 
hearing today.
    And thank you to our witnesses for your patience.
    As we listen and discuss data policies around the world, it 
is important to think about the answers to these questions: 
Number one, in what country has the Internet flourished? In 
what country, number two, are the majority of Internet 
headquarters located? Question three, does any other country 
have anything like Silicon Valley? If not, why not?
    I look forward to this discussion today. Thank you. I yield 
back.
    Mr. Terry. Well done.
    I recognize the gentlelady from Illinois.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman, and thank you to 
the witnesses. This is a very complex issue and one that is 
deserving of this committee's attention.
    From a video chat between family members thousands of miles 
apart, to instant access to news and research, to buying 
tickets or music or sporting events at the click of a button, 
the Internet has made our world more interconnected than most 
would have imagined maybe only 20 years. That growth has helped 
to support some of the most innovative companies in the world, 
providing not just entertainment and information, but also 
supporting millions of jobs here at home.
    With the value of e-commerce estimated at $8 trillion per 
year worldwide and U.S. digital exports in the hundreds of 
billions of dollars each year, we have to do all we can to 
promote responsible growth of the Internet.
    The U.S. has been the undisputed leader in the development 
and commercialization of the Internet. But just like at home, 
people abroad have doubts about the privacy and security 
practices of American companies. We have seen this most acutely 
in terms of efforts to restrict cross-border data flows or the 
transmission of data across national boundaries. Many major 
economic powers around the world have considered and enacted 
restrictions on cross-border data flows, and many individuals 
around the world have sought out alternatives to U.S.-based 
companies for services from email to e-commerce.
    Distrust of American companies and our Government is high. 
Massive data breaches, like those that occurred at Target and 
Home Depot, have made data privacy and security a central issue 
in trade talks with countries and with the European Union. Last 
year's revelations about the NSA's data collection practices 
just heightened concerns that already existed in many 
countries, adding fuel to the fire.
    I support the USA Freedom Act, legislation passed in the 
House in May to limit bulk data collection and require prior 
judicial approval for collection of sensitive information. The 
bill would also establish enhanced oversight and transparency 
mechanisms. The United States does not have comprehensive 
privacy or data security protections in place, and I support 
taking that step.
    I am an original cosponsor of H.R. 4400, the Data 
Accountability and Trust Act, which Mr. Rush introduced earlier 
this year. That bipartisan bill would require the FTC to 
establish clear standards for collecting, storing, and 
disposing of sensitive data and would require entities to 
inform the public in the event of a breach.
    Enactment of the USA Freedom Act and the Data 
Accountability and Trust Act, as well as steps to strengthen 
the Electronic Communications Privacy Act, would provide much 
needed assurances regarding the privacy of data held on U.S. 
servers. Doing so would, first and foremost, provide peace of 
mind to Americans concerned about the security of their 
personal information, and it would also make American 
businesses even more competitive in the global economy.
    I look forward to hearing from our witnesses and getting 
your perspectives on this important issue and the steps we 
should take in order to remain the undisputed world leader in 
the Internet economy.
    Do either of the gentlemen wish to--OK. And I would like to 
yield to Mr. McNerney whatever time is left.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. I thank the ranking member and also the panel 
for giving your time and effort on this hearing.
    There is a lot of data that flows across our national 
border, an awful lot of data. That raises questions of privacy, 
it raises questions of commerce, of national security. Some of 
our companies that are innovators are saying that our national 
security posture is hurting their businesses, and that opens up 
the opportunity for countries across the world to take steps 
against our country that they say, again, our companies are 
saying, costing them commerce.
    So, as the ranking member said, this is a very complicated 
issue, and I hope this hearing sheds a little light on that. 
And then we will be glad to ask questions and try and shed a 
little bit more light on it.
    So with that, I will yield back.
    Mr. Terry. Mr. Barrow, do you have a statement?
    Mr. Barrow. No.
    Mr. Terry. You yield back your time?
    Ms. Schakowsky. I yield.
    Mr. Terry. No other statements on--oh, Ms. Blackburn, you 
are recognized for 5 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Ms. Blackburn. Thank you, Mr. Chairman. And I apologize 
that I am late getting to the committee. We have a few things 
on the floor and had to do a little bit of work there.
    I just am so pleased that we are doing something on the 
cross-border data flow and the importance that this has in our 
economy. I have had the opportunity to work with Peter Welch, 
and we cochaired the Privacy Working Group this year. And we 
brought in a group of business and consumer stakeholders so 
that we could look a little bit more into this issue and have 
the time to just do a roundtable discussion. It was important 
to formulating some opinions and views, and we are appreciative 
that we had the time to do that.
    And we think that it is imperative that our committee 
seriously examine the restrictions on data flows that are 
emerging as a primary nontariff trade barrier to the 
international marketplace that come in the form of digital 
protectionism and poses a direct threat to U.S. economic 
development and job creation.
    It should be a priority for this Congress and the 
administration to ensure that U.S. trade agreements cover new 
and emerging digital technologies. They need to address 
measures that restrict legitimate cross-border data flow, and 
they should reexamine emerging policy and legal restrictions 
that could potentially harm innovation.
    I would also like to point out that one of our Privacy 
Working Group's participants earlier this year was Laura 
Donohue from Georgetown University Law Center, who is with us 
today. And it is good to see you again. And we are pleased that 
you are here to share your thoughts today.
    And I yield back my time.
    Mr. Terry. Mr. Guthrie, statement?
    Mr. Bilirakis?
    Mr. Bilirakis. No. Thank you.
    Mr. Terry. All time being yielded back, we will now 
recognize our witnesses. I am going to introduce you all first. 
And then, Ms. Dempsey, we will start with you and go from my 
left to right.
    So we are pleased to have Linda Dempsey here today. She is 
the vice president of international economic affairs for the 
National Association of Manufacturers.
    Mr. Bieron, senior director, eBay Public Policy Lab, thank 
you.
    Ms. Donohue is here. She is a professor of law at 
Georgetown University Law Center, Center on National Security 
and the Law. Thank you for being here.
    And Mr. Heather, vice president, Center For Global 
Regulatory Cooperation, executive director, international 
policy and antitrust policy of the U.S. Chamber.
    So now, Ms. Dempsey, you are recognized for your 5 minutes. 
And there should be the little red light. We keep things easy 
for us here. Green means go. Yellow means wrap it up. Red means 
really wrap it up. You are recognized for 5 minutes.

  STATEMENTS OF LINDA DEMPSEY, VICE PRESIDENT, INTERNATIONAL 
ECONOMIC AFFAIRS, NATIONAL ASSOCIATION OF MANUFACTURERS; BRIAN 
  BIERON, EXECUTIVE DIRECTOR, PUBLIC POLICY LAB, EBAY, INC.; 
    LAURA K. DONOHUE, PROFESSOR OF LAW, DIRECTOR, CENTER ON 
   NATIONAL SECURITY AND THE LAW, GEORGETOWN UNIVERSITY LAW 
CENTER; AND SEAN S. HEATHER, VICE PRESIDENT, CENTER FOR GLOBAL 
   REGULATORY COOPERATION, EXECUTIVE DIRECTOR, INTERNATIONAL 
     POLICY AND ANTITRUST POLICY, U.S. CHAMBER OF COMMERCE

                   STATEMENT OF LINDA DEMPSEY

    Ms. Dempsey. Good afternoon, Chairman Terry, Ranking Member 
Schakowsky, members of the subcommittee. I welcome the 
opportunity to testify today on behalf of the National 
Association of Manufacturers. The NAM is the oldest and largest 
trade association with over 12,000 manufacturing members in 
every State and every sector of the manufacturing economy. And 
as this subcommittee knows well, manufacturing is an engine 
that drives the U.S. economy, directly employing more than 12 
million men and women.
    A robust and multifaceted trade policy is a key component 
to growing manufacturing in the United States. With most of the 
world's consumers outside our borders and over $11 trillion in 
manufactured goods traded worldwide, exports in sales present 
enormous opportunity. Where there is a level playing field, 
manufacturers in the United States are succeeding, as shown by 
the fact that nearly half of all U.S. manufactured goods are 
shipped only to our 23 trade agreement partners, with which we 
also have a manufacturing trade surplus.
    To grow more opportunities for manufacturers, we need more 
trade agreements with more countries, and those trade 
agreements must be strong, comprehensive, and tailored to meet 
the challenges of the 21st century.
    One of the biggest new commercial challenges globally is 
the proliferation of new barriers to cross-border data flows 
and foreign government localization barriers related to 
information technology infrastructure. The use of digital 
platforms, including sharing data and information across 
national borders, is increasingly important to many businesses, 
particularly manufacturers.
    While some of our manufacturers produce and manage those 
information technology infrastructure, most manufacturers are 
actually consumers of these technologies. New information 
technologies and services, such as cloud computing and software 
as a service, machine-to-machine or M2M technologies, and 
advanced analytics are advancing manufacturers' ability to 
grow, be more productive, and more competitive.
    These technologies are particularly vital to small and 
medium-sized businesses, enabling them to acquire information, 
market their products, and communicate with and serve foreign 
customers much faster and in a much more cost-competitive 
manner than ever before.
    As information and communication technologies have 
advanced, however, many countries are moving to restrict the 
movement of data and where data can be stored for nothing more 
than good old protectionist reasons. Manufacturers have seen 
barriers adopted and considered in many markets, from Brazil, 
China, India, and Korea, to Indonesia, Nigeria, Vietnam, and 
Russia. And many governments are claiming national security 
concerns, although the measures proposed go far beyond the 
concerns expressed.
    For companies that maintain their own servers, the 
imposition of these types of restraints impede their ability to 
implement their own business strategies, raises costs, and 
could potentially force companies to make the choice between 
doing business in a foreign country or not. These restrictions 
also undermine cloud computing by reducing economies of scale, 
forcing service providers to locate servers based on Government 
mandate, not business decisions. The loss of cost-effective 
cloud solutions would be particularly harmful to small business 
manufacturers that increasingly rely on these technologies to 
market and sell overseas.
    Given the importance of this issue, in March the NAM board 
of directors unanimously approved new policy language urging 
that disciplines on these practices be included in U.S. trade 
agreements going forward. We have seen efforts to address these 
issues globally by APEC and the OECD, bilaterally by the United 
States and Europe, and with Korea. Yet the trading system has 
not fully kept place.
    The NAM therefore urged the inclusion of negotiating 
objectives on this issue as part of a new and modernized trade 
promotion authority. And in January, the NAM welcomed the 
bipartisan Congressional Trade Priorities Act of 2014, which 
answered that call by including negotiating objectives to 
include such disciplines in future agreements.
    The NAM is working with U.S. negotiators in support of 
binding provisions in future trade agreements, including both 
the final TPP and TTIP talks, that will allow manufacturers and 
other industries to move, access, and store information across 
borders, prohibit requirements to establish or use local 
servers, and ensure nondiscriminatory treatment of digital 
products and services.
    We agree that there can be areas where legitimate 
exceptions to such binding commitments should be permitted, 
such as with respect to national security, intellectual 
property, privacy, and law enforcement. But such exceptions 
should not be used to create unwarranted or protectionist-based 
barriers.
    We are seeking strong rules in the TPP and TTIP that can 
set a global model. As manufacturers continue their efforts to 
rebound after the recession, the last thing they need are 
additional barriers or unnecessary costs. It is important that 
the Congress and the administration work together to modernize 
the trade rules through new trade agreements and a new trade 
negotiating framework to address these growing barriers.
    [The prepared statement of Ms. Dempsey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Terry. Thank you.
    Mr. Bieron, you are recognized for 5 minutes.

                   STATEMENT OF BRIAN BIERON

    Mr. Bieron. Chairman Terry, Ranking Member Schakowsky, and 
members of the subcommittee, thank you for giving eBay Inc. the 
opportunity to testify on the role of cross-border data flows 
in promoting commerce, economic growth, and opportunity.
    Our company is a truly global business. 60 percent of our 
marketplace business is outside the United States. We serve 
over 152 million PayPal users in 2003 countries.
    EBay Inc. is using technology to power global trade. The 
eBay marketplace, PayPal payment service, and eBay Enterprise 
enable hundreds of thousands of U.S. entrepreneurs and small 
businesses, as well as midsized and large business, to reach 
customers around the world. This is transforming trade by 
allowing Main Street businesses to directly take part in 
globalization, reaping the benefits of markets previously only 
open to the largest global companies.
    The 21st century global economy is built on data flows. 
Every business that operates internationally depends on access 
to digital services, including technology, logistics, finance, 
and professional services. The Internet alone powers 21 percent 
of GDP growth in advanced economies and facilitates $8 trillion 
in e-commerce. It drives global economic and social progress, 
and the U.S. Internet industry leads the way. But it should be 
clearly understood that much of the benefit is gained by 
traditional industries and businesses, 75 percent according to 
McKinsey.
    So, not surprisingly, America's leading industries are 
united in their concerns about data protectionism. But our 
unique experience at eBay and PayPal leads us to stress how the 
Internet and mobile technology are now powering global trade by 
small and microbusinesses. These entrepreneurial traders, such 
as Tracey Johnson, who employs three people in Valley, 
Nebraska, or Esther Ben Porat, who employs 12 people in 
Lincolnwood, Illinois, they will be undermined in their 
businesses if open cross-border data flows are restricted.
    My team conducts research on the growth of global trade by 
technology-enabled small businesses. In brief, the Internet and 
platforms like eBay and PayPal are revolutionizing this global 
trade. In the U.S., only 4 percent of traditional small 
businesses export. On eBay, 95 percent export. Traditional 
small business exporters reach an average of 2 markets a year. 
On eBay, the average small business exporter reaches 30 markets 
a year.
    Technology-enabled small businesses survive at a higher 
rate, and newcomers capture a larger share of the overall 
market than in the traditional offline world. The global trade 
regime is literally changing before our eyes, as enterprises 
that historically were too small to break into global trade can 
now directly participate.
    This new inclusive globalization depends on four components 
that make up what we call the Global Empowerment Network. They 
are, one, access to the Internet; two, access to the global 
services that exist on top of the Internet; three, an efficient 
small package shipment logistics network; and, four, an 
educational system for small businesses to learn about online 
opportunities. Each of these components is undermined by data 
restrictions requiring businesses to locate data centers, store 
data, or process data in a specific country. These restrictions 
impose meaningful economic and security harms.
    These are nontariff trade barriers. Like all trade 
barriers, they lead to inefficiencies, higher prices, and harms 
to businesses and consumers. They harm U.S. businesses. But 
just as importantly, they hurt businesses and consumers in the 
markets that employ them.
    Data localization proposals in countries like Brazil, 
China, the EU, India, Indonesia, Korea, Vietnam have been 
estimated to impact GDP from potentially a 10th of a percent to 
1.7 percent, depending on the market. Small and midsized 
technology-enabled business in each of those countries are 
threatened.
    Of course, the U.S. impact is key as well. The U.S.-based 
global corporations will be harmed by the entire range of data 
protectionist proposals. Costs are imposed, inefficiencies are 
forced into the system, and opportunities are lost. But now, 
because of Internet-enabled global commerce, small and midsized 
businesses in every State and region of the United States will 
be impacted.
    Today we are witnessing the dawn of a new era of 
globalization. Small and midsized businesses contribute to 
their local economy and regularly serve customers around the 
world at the same time. This is good economics because it means 
more growth and wealth, and it is good for society because it 
means a more inclusive form of globalization.
    U.S. leadership is key to maintaining open global data 
flows and pushing back on data protectionism. This should be a 
top trade policy priority, to protect and promote growth at all 
levels. And I look forward to answering any questions.
    [The prepared statement of Mr. Bieron follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Terry. Thank you, Mr. Bieron.
    Professor Donohue, you are now recognized for your 5 
minutes.

                 STATEMENT OF LAURA K. DONOHUE

    Ms. Donohue. Thank you very much. I would like to thank 
you. Thank you, Ranking Member Schakowsky, and also members of 
the committee for inviting me here today.
    As you have noted, U.S. Companies dominate the digital 
space: Web browsing, search, email, social networking, 
traditional computing devices, smartphones, tablets. There are 
few foreign analogs to Google, Facebook, LinkedIn, Twitter, 
Instagram, Pinterest, myriad others who could compute with us 
on a global basis. But the U.S.' position is now imperiled.
    Documents released over the past year detailing the 
National Security Agency's call record program and the 
interception of content under the Foreign Intelligence 
Surveillance Act directly implicated U.S. high technology 
companies in Government surveillance. The result has been an 
immediate and detrimental impact on U.S. industry.
    The first documents revealed that the Government had served 
orders on Verizon, directing the company to turn over telephony 
metadata under Section 215 of the USA Patriot Act. The 
following day, The Guardian published classified slides on 
PRISM, detailing how the NSA had intercepted email, video, and 
voice chat, videos, photos, stored data, Voice over Internet 
Protocol, file transfers, video conferencing, online social 
networking details. And the companies read like a who's who of 
U.S. Internet giants: Microsoft, Yahoo, Google, Facebook, 
PalTalk, YouTube, Skype, AOL, and Apple.
    Slides showing the extent of so-called upstream collection 
similarly stunned the public, showing that the NSA had bypassed 
companies' encryption, intercepting data as it transferred 
between servers and the cloud, and it had obtained millions of 
email address books.
    Beyond these revelations, reports show that the NSA has at 
times posed as U.S. companies without their knowledge in order 
to gain access to foreign targets. I have documented all of 
this information in my written remarks. Three points follow. 
First, these programs have cost the United States billions of 
dollars. Second, they have pushed foreign countries to erect 
trade barriers through data localization laws. And, third, they 
have undermined U.S. national security.
    This subcommittee is uniquely poised to address the problem 
by supporting changes to FISA and U.S. privacy laws. It can 
also push for the insertion of economic and commercial 
representation throughout the national security infrastructure 
to prevent this situation from occurring again.
    So, first, the economic impact. In short, billions of 
dollars are on the line because of worldwide concern that the 
services provided by U.S. information technology companies are 
neither secure nor private. Perhaps nowhere is this more 
apparent than in cloud computing, arguably one of the most 
important industrial sectors for the future. The Information 
Technology and Innovation Foundation estimates that declining 
revenues for U.S. cloud computing could reach more than $35 
billion over the next 3 years. Other commentators have put the 
losses as high as $180 billion by 2016, unless something is 
done to restore confidence in U.S. industry.
    The impact extends to high technology. Cisco, Qualcomm, 
IBM, Microsoft, and Hewlett-Packard have all claimed declining 
revenues as a result of the NSA programs. Servint, a Web-
hosting company next door here in Virginia, reports that its 
international clients have dropped by 50 percent.
    As a senior analyst at the Information Technology and 
Innovation Fund explained, it is clear to every single tech 
company that this is affecting their bottom line. In return, 
companies have had to spend billions of dollars on new 
encryption. And even as U.S. companies are losing money, 
foreign companies are seeing their revenues increase.
    The NSA's involvement in these programs also revealed the 
extent to which it had became embedded in the architecture of 
the Internet itself. And as a result there has been a backlash 
that has led some commentators to raise concern that the 
Internet will never be the same. At risk is the balkanization 
of the Internet, undermining a traditional culture of open 
access and increasing the cost of doing business.
    As of today, China, Greece, Malaysia, Russia, South Korea, 
Venezuela, Vietnam, and others have already implemented data 
localization requirement laws. Turkey has introduced new 
privacy regulations, preventing the transfer of personal data 
overseas. Other countries, such as Argentina, Brazil, India, 
and Indonesia, are actively considering new data localization 
laws. Germany and France are considering a Schengen routing 
system, retaining as much online data in the European Union as 
possible.
    The Snowden release has further implicated our multilateral 
and bilateral trade negotiations. Two of the most important 
underway are TTIP, the Transatlantic Trade and Investment 
Partnership, and the Trans-Pacific Partnership.
    Although the U.S. Trade Representative is trying to put 
data protections on the table for the TTIP negotiations, the EU 
has steadfastly resisted this. And as long as the European 
public is strongly opposed to giving the United States access 
to European data the future does not bode well for our efforts.
    TPP, in turn, accounts for about 40 percent of global GDP, 
about \1/3\ of world trade. Two of our objectives in those 
negotiations are directly implicated by the Snowden releases: 
e-commerce, telecommunications, and intellectual property 
rights. The NSA programs weaken the USTR's hand with regard to 
open access and safeguards against cyber surveillance.
    This subcommittee has an opportunity to make a difference. 
The most important thing you could do is to curb the NSA's 
authorities under the Foreign Intelligence Surveillance Act. In 
January 2014 the President announced the telephony metadata 
program would be discontinued within 2 months. As of last 
month, it was continued for another 90 days. The Section 702 
program is more complicated. Overseas collection from non-USP's 
is a concomitant of the foreign affairs powers of the 
Government and outside the confines of the Fourth Amendment.
    I would like to conclude. In addition to recognizing a 
residual right in privacy that is held with third-party data 
and passing new privacy acts, one of the greatest and least 
discussed problems, international security infrastructure, is 
the lack of economic and commercial representation. The 
National Security Act does not include the Secretary of 
Treasury as a statutory member. That is done by PPD. Other 
economic concerns are not represented at a programmatic level 
of the national security infrastructure. This committee could 
change that structure to prevent this from happening in the 
future.
    [The prepared statement of Ms. Donohue follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Mr. Terry. Thank you, Professor.
    Mr. Heather, you are now recognized for 5 minutes.

                  STATEMENT OF SEAN S. HEATHER

    Mr. Heather. Thank you, Mr. Chairman and Ranking Member, 
members of the subcommittee, for the opportunity to be here 
today.
    Members of the U.S. Chamber, large and small alike, across 
all sectors of the economy rely on cross-border data flows to 
run their businesses as well as create better products and 
services. Let me share with you some examples of where cross-
border data flows are necessary as part of today's economy.
    From anywhere in the world, medical diagnostic equipment 
can now be serviced and even repaired remotely, saving valuable 
downtime. Financial transactions take place globally in the 
form of credit card services or the purchase or sale of stocks 
and bonds. Every package that ships has data associated with 
it, and as that package physically moves across borders so does 
the data electronically. Insurance companies store policy 
information in multiple server locations to be sure they can 
access it in case of disasters. And perhaps most obviously, any 
company with employees in multiple countries needs to have an 
IT network that moves company emails.
    For all of these reasons and thousands more, we must 
understand that cross-border data flows affect all businesses, 
not just ICT companies. Despite the paramount importance of and 
benefits derived from having the ability to transfer data 
across borders, some foreign governments continue to push for 
restrictions on cross-border data flows. Within the last year, 
we have seen more than a dozen countries consider such 
measures.
    Efforts to restrict cross-border data flows have been 
fueled by revelations regarding U.S. Government surveillance. 
This issue, while important, ultimately conflates concerns 
about Government access and use of data with commercial access 
and use of data. Attempts to limit the movement of commercial 
data ignore the fact that a completely separate legal regime 
often governs law enforcement activities.
    In reality, foreign government efforts to require forced 
localization of servers or to put in place local content 
requirements are at their core often attempts to bolster 
homegrown ICT industries.
    The Chamber, as a part of an educational awareness campaign 
in Indonesia earlier this year, assembled a panel of Indonesia 
ICT startups. Their message to their government underscored 
their need for cross-border data flows in order for them to be 
successful. Their voice has sent a powerful message that data 
localization efforts effectively walled them off from the rest 
of the world.
    Still, some foreign governments believe that requiring data 
centers will be a boon to job creation. The truth is data 
centers cost hundreds of millions of dollars but require fewer 
than 150 employees to operate. Foreign governments often fail 
to realize that jobs are created by businesses that rely on 
cross-border data flows, exhibiting a fundamental failure to 
understand how the digital economy operates and running a risk 
of cutting the world out of the World Wide Web.
    Cross-border data flow restrictions can also arise through 
the complexity of complying with privacy frameworks across 
multiple jurisdictions. All companies must abide by privacy 
rules in the countries in which they operate. Many times 
privacy regulations from country to country are nuanced and 
rooted in important cultural and societal differences.
    However, conflicting privacy rules between jurisdictions 
can present significant problems to moving data. Thus, it is 
imperative that governments work together to develop solutions 
to ensure that privacy regimes facilitate trade in goods and 
services that increasingly rely on data flows while protecting 
privacy.
    This is especially important as consumers too are mobile 
and their expectations are that they can access information 
when traveling, while at the same time they have assurances 
that their data, regardless of where it is transferred, stored, 
or accessed, is protected. The Chamber believes privacy 
objectives and seamless movement of data can both be achieved.
    Trade agreements can help. For example, the U.S.-Panama and 
U.S.-Korea Trade Agreement both recognize the importance of 
seamless flow of information. The Chamber's members support 
ambitious cross-border data flows obligations in the TPP, TTIP, 
and TISA. Ideally, these agreements should address data 
transfers by including three key elements: one, a commitment to 
allow cross-border data transfers; two, a prohibition on data 
localization and local content requirements; and, three, a 
nonexhaustive list of data transfer mechanisms.
    In closing, the key takeaways from my remarks are, first, 
cross-border data flows are critical to all sectors of the 
economy, not just ICT companies; two, concerns over Government 
access and use of data will not be addressed through laws 
targeting commercial data; three, ICT industries are best 
fostered where data flows seamlessly; four, privacy concerns by 
Government must not mask protectionism aims; five, legitimate 
privacy objectives can be supported through cross-border 
cooperation between regulators; and, finally, going forward, 
trade agreements must support cross-border data flows, push 
back against forced localization and local content 
requirements, endorse the seamless flow of data, and encourage 
interoperability among privacy regimes.
    It is well understood that the free flow of capital across 
borders is important to the global economy. Without it, markets 
seize up and economic growth stagnates.
    Today I would submit, in this increasingly digital age, the 
same can be said about the importance of data flows across 
borders. Like capital flows, our economy and the world economy 
are relying on cross-border data flows for businesses to 
operate and for economic growth.
    The Chamber appreciates the opportunity to be here before 
the committee. Today's hearing importantly raises the profile 
of this issue at a critical time. And we look forward to 
working with this committee to preserving the movement of data 
seamlessly across borders. Thank you.
    [The prepared statement of Mr. Heather follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
    Mr. Terry. Thank you, Mr. Heather.
    And well done, everyone. Appreciate the input. Now it is 
our turn to ask questions to kind of dive deeper into your 
statements.
    But just my first question is a shallow question, but one 
that helps us really define the significance of cross-border 
data. And so to Ms. Dempsey, Bieron, and Mr. Heather, can you, 
in your best estimate, tell us just either by dollar amount or 
the percentage of your members or clients engage in cross-
border data transfers? Ms. Dempsey? Hundred percent? Fifty 
percent? Ten percent?
    Ms. Dempsey. Thank you, Mr. Chairman. That is a tough one 
to answer quantitatively for NAM. I think information 
technologies are clearly a driver of global trade. And the 
growth in global trade that we have seen, particularly among 
small businesses, has been driven in significant part by that. 
We obviously have over $200 billion last year in actual 
computer and electronic equipment, but the gains are much, much 
more than that. But beyond that quantification----
    Mr. Terry. OK.
    Mr. Bieron. In the United States, the eBay commercial 
sellers--so these would be when we have done our research 
globally, we sort of pick $10,000 in sales a year simply 
because we had to pick a number and that seemed like a nice 
round number--so at that level in the United States, 97 percent 
of them are exporting. And so they are interacting with 
customers globally. And that number, in the upper 90s, tends to 
be with our commercial sellers almost everywhere in the world. 
So it is nearly everybody.
    Mr. Terry. So out of that group, 97 percent. But how big is 
that group?
    Mr. Bieron. Hundreds of thousands in the United States and, 
you know, about 2 times that globally.
    Mr. Terry. Awesome.
    Mr. Heather.
    Mr. Heather. I, like the NAM, have a hard time quantifying 
what the number would be in the U.S. Chamber's membership. But 
I think, from talking with our members, what you see is the 
frequency by which they are increasingly relying on cross-
border data flows. So you may have a small business that 5 
years ago only once may have been looking online to source a 
product that they needed outside of the United States, and 
today they are doing that a dozen times in a year.
    And so what I can speak to more is the frequency in which 
companies are increasingly relying on cross-border data flows, 
but some absolute number to give you across the membership 
would be difficult.
    Mr. Terry. All right.
    Professor Donohue.
    Ms. Donohue. Yes. Just to add to that, outside of e-
commerce, for the IP industry alone about 40 million American 
jobs are tied directly to IP-intensive industries, which 
stimulate about 60 percent of our exports, our merchandise 
exports. So it is enormous numbers.
    Mr. Terry. They are enormous numbers, and that is why we 
want to set the table about how important this is.
    The next part is we have all talked about how this has to 
be discussed and negotiated in our trade agreements. Do you 
think it would help Congress to weigh in with some level of 
resolution, instructing or suggesting to USTR and the 
Department of Commerce? Would that be helpful? And we will 
start from right to left, just to be different.
    Mr. Heather.
    Mr. Heather. I think absolutely. If you look at language 
that has been drafted in, for example, the trade promotion 
authority legislation that has been out there for examination, 
there is very positive language in that proposed legislation on 
this issue. I think it would be important for this committee to 
echo that, not only in order to give encouragement to the U.S. 
Chamber of Commerce, who are working these issues hard, but to 
send a signal to those trading partners that there is an 
expectation that USTR brings that home when they bring home an 
agreement for the Congress to consider.
    Mr. Terry. Professor Donohue.
    Ms. Donohue. So I would say it is not just important, but 
essential that this committee actually weigh in on that. And it 
is essential that they both weigh in on the importance of data 
flows and data transfers and also doing something to give our 
industry the ability to say things have changed, to increase 
consumer confidence.
    So really going after the source of the problem that is 
really accelerated this movement toward data localization, to 
say, no, we have now curved these surveillance authorities, 
they are more transparent, we have more oversight. So you take 
away the reason people might give for otherwise doing this. And 
this committee can play a unique role in both ways.
    Mr. Terry. Mr. Bieron.
    Mr. Bieron. In a word ``yes.'' And to expound on that, I 
think that trade negotiations and the global trade sort of 
infrastructure moves very slowly. We all know that trade 
agreements tend to be built on the previous trade agreement, 
which is built on the previous trade agreement. They all take, 
let's say, a decade to negotiate.
    When you are dealing with the changes that are wrought by 
the Internet where the global economy is changing so rapidly, 
they very much need a very forceful direction to rapidly change 
how the Internet is accounted for in our negotiating 
objectives, because if we move our trade policy at the normal 
speed that it moves, we will, like, miss most of what is 
happening in the Internet.
    Mr. Terry. That is a good point.
    Ms. Dempsey. And I am out of time, so make it quick.
    Ms. Dempsey. I agree. And I will just add, I concur with 
all that my colleagues have said. It is so important for the 
United States to speak with one voice on this issue. It is 
moving fast. We are seeing this proliferation of other 
countries trying to impose very protectionist policies under 
the guise of security or privacy concerns. It is important for 
you all to work together to move this issue forward.
    Mr. Terry. Thank you.
    Gentlelady from Illinois is recognized.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Mr. Bieron, I have--did I say that right?
    Mr. Bieron. Yes.
    Ms. Schakowsky. OK. I have a number of questions for you. 
One of the reasons other countries are considering laws that 
restrict cross-border data flow is the fear that their personal 
and financial information is not being properly protected from 
criminal cyber attacks. Earlier this year, this subcommittee 
held a hearing on the Target and Neiman Marcus data breaches 
that occurred late last year. And since then, we have heard of 
a number of other large-scale data breaches, Michaels, Home 
Depot.
    In May of this year, news broke that eBay's system had been 
breached and an unknown number of eBay's 145 million customers' 
personal information, including names, phone numbers, home 
address, emails, and encrypted passwords, were compromised. So 
I am asking you if you have any sense now, more than 3 months 
after the breach, of how many customers had their data exposed 
during the breach?
    Mr. Bieron. I don't believe that we know exactly how many 
customers had their data accessed. The cyber attack that 
resulted in the essentially stealing of names--as you said, 
names, addresses, phone numbers--did prompt eBay to ask and 
require all of our users to change their passwords before they 
could reaccess the site.
    So what it prompted, in our case, was the decision to, for 
safety's sake, require everybody to change their password, 
because user passwords, although accessed in an encrypted form, 
they were accessed, encrypted passwords were accessed. And we 
decided that the smartest and safest thing to do was to require 
a password reset, which we implemented.
    Ms. Schakowsky. Did the breach compromise eBay's customers 
in countries other than the United States?
    Mr. Bieron. It impacted our eBay customers globally.
    Ms. Schakowsky. So I am sure you recall that eBay received 
some criticism at the time the breach was announced about its 
public response to the attack. There was an article in Wired 
which noted that the initial warning about the breach was a 
note on the eBay corporate Web site, not eBay.com. A statement 
was also posted to PayPal's Web site that warned in its title 
that eBay users should change their password, but the body of 
the post offered no information, other than the words, quote, 
``placeholder text,'' unquote.
    And so in what ways, then, did you notify customers that 
they should change their password, other than that?
    Mr. Bieron. Well, I mean----
    Ms. Schakowsky. PayPal.
    Mr. Bieron. Sure. When we discovered that there had been a 
breach of our system, the company rapidly worked to determine 
what the extent of that breach was, when it was determined, 
what the extent was. And we realized that the proper course of 
action would be to have everyone reset their password.
    Ms. Schakowsky. You still don't have a number?
    Mr. Bieron. No. We still don't have a number because data 
files we know were accessed that had names and addresses and 
passwords and phone numbers. And as I would note, the passwords 
were encrypted. They were accessed, but even now the exact 
number of the data points in the files, we don't know exactly 
how many ended up being withdrawn. So we know that----
    Ms. Schakowsky. Well, I am just asking a simple question: 
How many customers had their data exposed, not what happened 
or----
    Mr. Bieron. And that is what I am saying, we do not know 
based on how the breach occurred exactly the number that was 
accessed.
    Ms. Schakowsky. Don't think that is important, and how are 
you proceeding then?
    Mr. Bieron. Well, how we proceeded was to require all of 
our customers to reset their passwords.
    Ms. Schakowsky. So are you ever going to know?
    Mr. Bieron. I am not sure if our technical people will ever 
know exactly the number. We do know that all of our users have 
had to reset their passwords because of that. And actually I 
believe that we have received quite a bit of praise for how 
rapidly we were able to put in place a system to have everybody 
have to reset their passwords and to notify all of our users.
    Ms. Schakowsky. OK. Well, let me ask you. Different 
countries have different laws regarding breach notification. So 
how does eBay handle notification in the many different 
countries in which it operates, or did you have the same 
procedure, just change your password?
    Mr. Bieron. We had the same procedures. We notified 
everybody. And then when they were coming to our site, they 
were stopped from proceeding and using the site until they 
changed their password.
    Ms. Schakowsky. In addition to that, have you made any 
changes to your security and breach response procedures since 
May that would respond to any future attacks?
    Mr. Bieron. Yes. I think that I would prefer, if we could, 
to respond in writing to give you a specific set of examples of 
things that we have done. But there is no question that the 
company looked very much at the kind of threats that are always 
coming at an Internet business like ours and did make some 
changes to address the way that this attack occurred.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Terry. Gentleman from New Jersey, vice chairman of the 
subcommittee, is recognized for 5 minutes.
    Mr. Lance. Thank you very much. And I did change my 
password on eBay.
    Ms. Dempsey, one of the chief concerns of the Energy and 
Commerce Committee and certainly this subcommittee is to 
promote the policies that reinvigorate the American 
manufacturing economy and we hope create jobs here at home. 
What do you think restrictions on data flows would have as a 
result, based on what we would like to do to reinvigorate the 
American economy?
    Ms. Dempsey. Thank you, Congressman. And thank you for the 
work of this committee.
    On manufacturing, obviously, it is NAM's mission to grow 
manufacturing in the United States. My position is to grow 
manufacturing through international trade policies and 
investment policies.
    Restrictions on data flows, server localization barriers 
are going to drive a stake through the heart of the growth in 
manufactured exports that we have witnessed over the past 
decades. We have seen more than a doubling of U.S.-manufactured 
exports since 2002. We are at a record high, $1.38 trillion in 
manufactured exports, which helped fuel the biggest 
manufacturing output for the United States of over $2 trillion 
in 2013. That is great news.
    The bad news? There is $11 trillion traded outside our 
borders in manufactured goods every year. The United States, 
while we have increased manufactured goods exports, we have 
lost market share. Our ability to compete overseas is 
increasingly tied to different policies. Eliminating barriers 
overseas, as I indicated, with new trade agreements.
    These are some of the barriers that are becoming most 
pernicious and are continuing to grow. We can succeed when we 
have strong trade agreements, when we eliminate these barriers 
overseas. We see that with our trade agreement partners. So if 
we want to continue to grow exports and continue to have that 
to be a source of manufacturing growth, eliminating these types 
of barriers will go a long way.
    Mr. Lance. And we have lost market share because the pie 
has grown so much?
    Ms. Dempsey. Yes. So other, new emerging countries. China, 
obviously. The United States used to be the largest 
manufactured goods exporter. We were overtaken by Germany and 
then by China. We are number two. And we are doing well, but we 
can do better. And we have a lot of other countries out there 
who are working hard.
    But I will say that some of the countries that are really 
growing are those that are doing more to grow export 
opportunities, grow trade agreements. I am always disheartened 
to hear that companies are sometimes choosing Mexico as a venue 
to put new factories. Not because of NAFTA. It is because 
Mexico has a trade agreement with Brazil, and they have a lot 
more in Japan and a lot more trade agreements than we do that 
eliminate barriers.
    So those are the types of things that impede us and putting 
the United States back on the track to lead and lead in the 
types of rules that we are going to have in the international 
economy.
    Mr. Lance. Thank you.
    Is there anyone else on the panel who would like to 
comment?
    Seeing none, Mr. Chairman, I will yield back the balance of 
my time.
    Mr. Terry. Thank you.
    I recognize the gentleman from California. You are 
recognized for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I am glad I came to 
the hearing today. It is a very interesting discussion, and I 
appreciate that.
    I am going to start with you, Professor Donohue. Your 
testimony was pretty stark actually. I was on the Privacy 
Working Group, so I have heard some of this before, the impact 
of NSA activities and the disclosures about that on American 
businesses. And it is not very comforting.
    You said that this subcommittee has a role to play in 
restricting NSA. Would you give us some suggestions or ideas.
    Ms. Donohue. Sure. Sure. Thank you, Congressman McNerney. I 
appreciate it. It is nice to see you again.
    I think there are three roles, really, that this committee 
could play. The first role is in supporting legislation passing 
through Congress right now dealing with the Foreign 
Intelligence Surveillance Act. Now, there are many bills 
underway. Some of them accomplish different things to different 
extents. But something needs to be done. Otherwise, our 
industry and our USTR are in a position where they can't really 
argue changed circumstances at all. And so I think it is very 
important that something be done.
    The second thing that this committee can do is to take a 
look at the privacy laws and the ways in which consumer privacy 
is or is not actually protected. So the U.S. and the EU, a lot 
of ink has been spilled about how the two countries are so 
different in terms of their privacy laws. I disagree. And my 
written remarks go into some detail as to why I think we are 
actually not that far apart from Europe.
    But two ways in which we differ significantly that are 
important are, first, in terms of third-party data and, second, 
in terms of having an omnibus statute as opposed to single 
statutes that drill down deeper, but in very narrow areas. In 
the second instance, Europe has broader statutes, directives 
that cross different areas. We have more narrow ones.
    So one thing that this committee could do is look at a more 
overarching framework. The Privacy Act is 40 years old this 
year and is really a defunct piece of legislation. So that 
needs to be looked at.
    The first part of this, though, the third-party data 
rights, the idea that you still have a right in information, 
even though a third party holds it or a company holds it. Our 
case law comes from the 1970s, from Smith v. Maryland. And we 
have seen recently that the Supreme Court is coming to the 
conclusion that the privacy implication and the privacy rights 
implicated by new technologies are significantly deeper than 
they were at a time when all we had were land lines. Now your 
cell phones tells where you are 24 hours a day, who you are 
with, what you are doing, what you read, what you believe, all 
of this information.
    And so this committee could get out ahead of the Supreme 
Court in some ways and really recognize a consumer right to 
privacy in an omnibus statute and in this way bring the U.S. 
into line with the European Union on our own terms, but in a 
way that again helps our USTR and TTIP and other negotiations.
    Mr. McNerney. I mean, that sounds like something that could 
happen on a bipartisan basis as well.
    Ms. Dempsey. Oh. Absolutely. Yes. Yes.
    The third, and this has gotten almost no attention, but I 
have been really struck actually, and I say this as a scholar, 
just looking at how this has played out, the National Security 
Act does not include the Secretary of Treasury on the National 
Security Council. So PPD-1 does. That is up to the President.
    And when international economic issues are on the agenda, 
then the President may invite the Secretary of Commerce, the 
USTR, the Assistant to the President for Economic Policy, or 
the Chair of the Council of Economic Advisors to NSC meetings.
    The problem is, if the issue isn't front-and-center 
international trade or international implications, that 
economic representation is not there, the consumer side of 
this, the commercial side of it, everywhere from the NSC down 
to a programmatic level. And so there are ways that the 
national security infrastructure fails to take account of the 
things that this committee cares about in a way that would help 
to prevent this kind of situation from arising in the future. 
And I think the committee could play a very strong role there 
by insisting that economic security, which from the founding 
has been central to U.S. national security, that economic 
security be taken into account as well.
    Mr. McNerney. Thank you.
    Mr. Chairman, I was wondering if I could have another 5 
minutes. Just joking.
    Mr. Terry. No. You can have 53 seconds.
    Mr. McNerney. Mr. Heather, I think on your closing 
statement you had five items that you mentioned. And the second 
one I think you mentioned was that data-flow problems cannot be 
addressed directly by dealing with commercial data. Did I 
misunderstand that?
    Mr. Heather. The second point was that concerns about 
Government use of data and access of data are not going to be 
addressed with regard to laws about commercial data. In other 
words, concerns about NSA often conflate commercial use of data 
versus Government use of data. So the solutions to dealing with 
concerns about Government use are going to be different than 
solutions for use by commercial data.
    Mr. McNerney. Yes. Well, that is in line with what Dr. 
Donohue was saying, basically.
    Mr. Heather. Correct.
    Mr. McNerney. All right. Mr. Chairman, I will yield back.
    Mr. Terry. Thank you. I appreciate that.
    Now Mr. Bilirakis, gentleman from Florida, is recognized 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    And I thank the panel for their testimony today.
    Mr. Bieron, you mentioned in your testimony that over 95 
percent of small U.S.-based businesses using the eBay 
marketplace platform engage in exporting versus 4 percent of 
traditional businesses. Can you explain how you arrived at 
these figures? In particular, what is a traditional business in 
this context?
    Mr. Bieron. Well, that was based on comparing data from the 
eBay marketplace with data that, I believe, was Census Bureau 
data that we had and a trade economist at the University of 
Geneva actually analyzed. So U.S. Government data on small 
business and their trading in the traditional economy compared 
to the percentages of exporting going on over our marketplace.
    Mr. Bilirakis. OK. Thank you. Next question, again, for Mr. 
Bieron. Your testimony says that smaller businesses are 
reaching roughly 10 times as many markets per year than the 
traditional U.S. businesses. Please explain the difference in 
these markets and their importance to the overall business 
growth.
    Mr. Bieron. That was simply data to explain sort of the 
difference between the kind of global marketing that a small 
Internet business can do. And again they are not businesses 
that, like, just exist on the Internet. These are small 
storefront businesses in many cases that also use the Internet. 
So they are selling locally, and they are also able to reach 
anyone who uses the services that they use. So if they are up 
on eBay, they are being seen by 140 million customers 
potentially around the world.
    So the traditional business export model for small 
businesses tends to be--and this is why only about 4 percent do 
it--oftentimes they are small businesses that are either 
located near a border, so they have customers coming across the 
border regularly, or they have family connections, let's say, 
to a particular country, so they have export relationships 
through that. Or maybe they are a business that is part of 
another bigger business' supply chain. So maybe they are 
supplying a particular business in another country. This is why 
small businesses traditionally have oftentimes only exported to 
one or two countries a year.
    In the Internet global business model, where you can be a 
really tiny business but now you are literally being seen by 
individual customers around the world and you are using your 
Internet, combined with services like eBay and PayPal, combined 
with then UPS, FedEx, the Postal Service to then ship packages, 
so, like I said, on our site, the average number of export 
markets for our--they are still tiny, microbusinesses in many 
cases--ended up being just under 30 per year.
    Mr. Bilirakis. OK. In your opinion, how difficult would it 
be for a small business to reach the international marketplace 
without cross-border data flows?
    Mr. Bieron. Essentially impossible. I mean, today, as we 
have heard, whether you are a giant, multibillion-dollar 
business or you are an individual who wants to send an email to 
somebody, at the end of the day it involves cross-border data. 
So, I mean, you can't get paid by somebody outside the country 
generally if you don't have an ability to have cross-border 
data flow. So it underpins, whether you are a tiny individual 
entrepreneur or a giant business, it underpins the way all kind 
of cross-border business gets done.
    Mr. Bilirakis. Thank you.
    Thank you. I yield back, Mr. Chairman. Appreciate it.
    Mr. Terry. That is all the folks that we have to ask 
questions, so I guess that completes our hearing today, except 
that all committee members, whether they were here or not, have 
the opportunity to submit written questions to you. I don't 
know if there will be any, but if there are any submitted to 
you, I would appreciate about a 14-day turnaround. I think that 
is pretty reasonable.
    So with that, let's see, we do have two letters for the 
record. Letter on behalf of the Marketing Research Association, 
dated September 16, 2014, addressed to the ranking member and 
myself.
    Then the second one is a letter on behalf of the 
International Affairs Division of the U.S. Chamber of Commerce 
dated April 3, 2014, addressed to the Office of Science and 
Technology Policy. Unanimous consent to submit those. No 
objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Terry. And that concludes our hearing. Thank you very 
much.
    [Whereupon, at 3:05 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Henry A. Waxman

    Today's hearing is on efforts to limit the electronic 
movement of information across national boundaries.
    The United States leads the world in technological 
innovation. Digital trade-related exports totaled more than 
$350 billion in 2011, up from about $280 billion in 2007.
    In today's heavily digital commercial environment, cross-
border data flows are not just a normal part of doing business, 
but also essential to the innovative capacity of U.S. 
enterprises. Any limits on international trade, including 
digital trade, will have an effect on the American economy and 
American jobs. Recent industry reports find that the efforts of 
foreign countries to restrict data flows--or even the threat to 
do so--can hurt American businesses.
    There is no doubt that foreign trust in the United States 
Government and of U.S.-based companies has been hurt by 
revelations since last year about the NSA's online surveillance 
programs.
    But other factors are also at work. Just like Americans, 
citizens of other nations are concerned about the massive 
amount of personal information being collected by private 
companies and whether this information is secure. In Europe, 
for example, the efforts to limit private data mining and to 
ensure basic data security protections began long before Mr. 
Snowden's name was known.
    For example, in 2012, an Austrian law student sparked 
outrage in Europe over his discovery that Facebook possessed 
files of personal information on individual users that were 
hundreds of pages long. Even earlier, several European 
countries took action against Google's Street View service 
after it was revealed that Google's Street View cars collected 
personal information as they drove through the streets.
    One way to help alleviate those fears and build trust is 
for the United States to establish effective baseline privacy 
and data security protections. That is why I have supported, 
and continue to support, efforts to establish such protections 
for consumers' information.
    Regaining the trust of consumers worldwide is crucial to 
the continued growth of Internet and communications technology 
sector in the United States. That requires a multi-faceted 
approach--through appropriate legislation and regulation, as 
well as through trade negotiations and other administration 
efforts to prevent harmful restrictions on cross-border data 
flows.
    I look forward to the witnesses' testimony and to our 
discussion today of this important topic. Thank you.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
